                                                \

                                                J                                   I
                                                              NATIONAL SCIENCE FOUNDATION
                                                                                                  /I


                                                               OFFICE OF INSPECTOR GENERAL
                                                                 OFFICE OF R\NESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

Case Number: I03070029lCloseout                                                              Page 1' of 1

                                                                                                       I




       The National Science Foundation (NSF) Office of Inspector General (01G) received infonkation
       that a school district1was unable to account for $15 million dollars of bond funds. A federal
       agencf investigated the district for fraud and misuse of public funds for fraudulently obtaining a
       $50 million federal grant.

       A review of NSF databases revealed that the school district received numerous awards fiom NSF
       over a five year period. NSFIOIG contacted the school district and expressed concerns regkding
       the'mismanagementof NSF funds.
                                        r
       The school district sent a letter to NSFIOIG advising that a federal agency investigated the
       susbected mismanagement of funds and found that the irregularities were in the facilities
       department. The school district indicated that no NSF grants were mismanaged.

       The allegations were unsubstantiated. Accordingly, this case is &&.



                          Accordingly, this case is closed.


              I




              1




                  I




                  I

                      I




                                                                                                            I



          Footnote Redacted                                                                                 I

          Footnote Redacted

                                                                                                                t




NSF OIG Form 2 (1 1/02)
